                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A13050068                                                                    Page 1 of 1



                  We assessed an allegation that NSF support1 was improperly acknowledged in a
         publicatio~ for which the submission date predated the start of the award. The PI of the award
         stated that the researchers incurred pre-award costs and accomplished research included in the
         revised manuscript once they received notice of the award, and acknowledgment to the NSF
         award was added at the galley-proof stage of the publication. NSF rules allow such pre-award
         activities at the risk of the grantee. Therefore, there is no evidence of impropriety.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
